RESPONDENT APPENDIX
TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the United States District Court for the
Southern District of Alabama
(August 20, 2020) .................................Res.App.1a
Order Approving Second Motion to Compromise
(Doc. 146) and Denying Motion to Approve
Pursuit of Claims (Doc. 156)
(March 26, 2020) .................................Res.App.27a

Res.App.1a
ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
(AUGUST 20, 2020)
UNITED STATES DISTRICT COURT,
S.D. ALABAMA, SOUTHERN DIVISION
________________________
SE PROPERTY HOLDINGS, LLC,

Appellant,
v.
GADDY ELECTRIC & PLUMBING, LLC, ET AL.,

Appellees.
________________________
Civil Action 1:20-00201-KD-N
Before: Kristi K. DuBOSE,
Chief United States District Judge.
KRISTI K. DuBOSE,
CHIEF UNITED STATES DISTRICT JUDGE
This matter is before the Court on Plaintiff SE
Property Holdings, LLC’s Motion for Stay Pending
Appeal (Doc. 12); Trustee Terrie Owens’ Response in
Opposition (Doc. 18); Creditor Union State Banks’
Response in Opposition (Doc. 19); and Defendants’
Response in Opposition (Doc. 20). Also before the Court
is Plaintiff SE Property Holdings, LLC’s brief on appeal
(Doc. 9); Trustee Terrie Owens’ brief in opposition (Doc.

Res.App.2a
14); Creditor Union State Bank’s brief in opposition
(Doc. 15); Defendants’ brief in opposition (Doc. 17);
and Plaintiff SE Property Holdings, LLC’s response
(Doc. 21).
I.

Background

In 2006 and 2008, debtor/defendant Jerry DeWayne Gaddy (Defendant Gaddy) and others guaranteed two business loans by Vision Bank to Water’s
Edge, LLC related to a real estate project in Baldwin
County, Alabama. (Doc. 3 at 6; Doc. 4-70 at 17-26, 2938). In June 2010, Water’s Edge defaulted on its
obligation to Vision Bank. (Doc. 4-71 at 57-60). Vision
Bank demanded payment upon default from Defendant
Gaddy and the other guarantors. (Id.).
Vision Bank sold all of its assets around 2011 and
is no longer in operation. (Doc. 3 at 7). Vision Bank
sold the two loans at issue to Plaintiff SE Property
Holdings, LLC (SEPH). (Id.; Doc. 4-72 at 2). In October
2010, Vision Bank (later SEPH) sued Water’s Edge,
LLC and the loan guarantors in Baldwin County
Circuit Court. (Doc. 4-72 at 7; Doc. 7 at 118-19, 188).
The Circuit Court entered judgment in favor of SEPH,
against Defendant Gaddy and the others in the
amount of $9,168,468.14. (Doc. 4-71 at 61-62).
Thereafter, in 2016, SEPH sued Defendant Gaddy,
his wife, his daughter, and several family-owned
business entities in the United States District Court
for the Southern District of Alabama (1:16-cv-00332JB-M and 2:16-cv-00560-KD-B) alleging numerous

Res.App.3a
Alabama fraudulent transfer and conspiracy claims.1
SEPH’s allegations against Gaddy span from 2009
through 2014; SEPH contends that Gaddy transferred
property to his family and others with knowledge of
Water Edge’s potential, and later actual, default.
(Doc. 9 at 12). SEPH outlined the alleged fraudulent
transfers as follows:
a.

On or about December 15, 2014, days before
SEPH obtained a judgment against Gaddy
on his guaranty, Gaddy transferred 41% of
the interest in Gaddy Electric to Sharon
Gaddy, his wife. Despite the transfer, Gaddy
remained operations manager of Gaddy Electric and used the entity to pay for personal
expenses (Doc. 4-12, PageID. 1589-90; Doc.
9, PageID 1349);

b.

On or about November 2, 2009, Gaddy
transferred 46% of the interest in Gaddy
Electric to Sharon Gaddy. (Doc. 4-12, PageID.
1590);

c.

On or about December 23, 2014, six days after
SEPH obtained its judgment against Gaddy
and less than ten days after transferring his
interest in Gaddy Electric, Gaddy transferred
$293,945.51 to Gaddy Electric (Doc. 4-12,
PageID. 1591);

d.

In October 16, 2009, two weeks after SEPH
threatened the Water’s Edge guarantors with
suit in the event of default, Gaddy trans-

1 These two case have since been consolidated with 1:16-00332JB-M as the lead case. In April 2017, SEPH amended its complaint.
(1:16-00332-JB-M, Doc. 47).

Res.App.4a
ferred two parcels of real property in Marengo
County, Alabama to Rembert, which was
not formed until October 30, 2009. (Doc. 4-12,
PageID.1591-92);
e.

Gaddy transferred his membership interest
in Rembert to Rice, his daughter (Doc. 4-12,
PageID.1591-92);

f.

On November 20, 2009, Gaddy transferred
three parcels of property located in Marengo
County, Alabama to Sharon Gaddy. (Doc. 412, PageID.1592-93.) These parcels make up
the Gaddy’s homestead. (Doc. 7, PageID.123436);

g.

On October 4, 2010, a week after SEPH sued
Gaddy in the Water’s Edge litigation, Gaddy
transferred to Rice a 7.41-acre parcel of
property in Marengo County, Alabama. (Doc.
4-12, PageID.1593-94); and

h.

On April 18, 2012, while the Water’s Edge
litigation was pending, Gaddy transferred two
parcels of real property in Marengo County,
Alabama, containing industrial property, to
SLG Properties, which Sharon Gaddy formed
in February 2012. (Doc. 4-12, PageID.159495.)

(Doc. 9 at 12-14). And see (Doc. 3 at 8 (organizing the
pertinent events from SEPH’s district court complaint
into a chronological table)).
Gaddy filed his Chapter 7 petition on April 26,
2017, staying the district court case. (Doc. 3 at 49). In
June 2019, Trustee Terrie Owens (Trustee) became
the party in interest in the district court case. (Doc. 3

Res.App.5a
at 9; Doc. 4-12 at 9). On May 9, 2019, the Trustee
and Defendants filed a joint motion in the Bankruptcy
Court to approve a compromise. (Doc. 3 at 318; Doc. 3
at 9). This first compromise sought to release the district court claims against the Estate for $375,000.
(Doc. 3 at 321). SEPH filed an objection to the first
compromise on June 5, 2019. (Doc. 3 at 329). Following
additional briefing, the Bankruptcy Court denied
approval of the first compromise because SEPH was
willing to pay $400,000 to the Trustee in order to
pursue the claims. (Doc. 3 at 436-37).
Subsequently, on November 15, 2019, the Trustee
and Defendants filed the subject motion to approve a
compromise that would settle the district court case
for $825,000. (Doc. 3 at 443). SEPH filed its objection
to the second compromise. (Doc. 3 at 460). Creditor
Union State Bank (USB), the only other creditor in
this case, supported the second compromise. (Doc. 3
at 537).
The Bankruptcy Court held an evidentiary hearing
on January 27, 2020 that lasted eight hours. (Doc. 3
at 6). During this hearing, the Bankruptcy Court
heard testimony from SEPH’s Vice President, Jennifer
Corbitt, the Trustee, and Gaddy. Thereafter, the Bankruptcy Court entered an order, thoroughly analyzing
the applicable law and the evidence before it, and
approved the second motion to compromise.
On March 31, 2020, SEPH filed a notice of appeal
of the compromise order. (Doc. 3 at 575). On April 22,
2020 SEPH moved the Bankruptcy Court for a stay
of the compromise order pending appeal. (Doc. 12-1).
The Bankruptcy Court denied SEPH’s motion for stay
on May 7, 2020. (Doc. 12-2). Thereafter, SEPH filed a

Res.App.6a
motion for stay in this Court pending resolution of
the appeal. (Doc. 12).
II.

Standard of Review

In a bankruptcy case, the district court functions
as an appellate court. In re Sublett, 895 F.2d 1381,
1383-1384 (11th Cir. 1990). See also In re Nilhan
Fin., LLC, 614 B.R. 379, 383 (M.D. Fla. Mar. 3, 2020)
(citing Varsity Carpet Servs., Inc. v. Richardson (In
re Colortex Indus., Inc.), 19 F.3d 1371, 1374 (11th
Cir. 1994)). In this capacity, [t]his Court reviews the
Bankruptcy Court’s legal conclusions de novo but
must accept the Bankruptcy Court’s factual findings
unless they are clearly erroneous.” Id. (citing In re
JLJ Inc., 988 F.2d 1112, 1116 (11th Cir. 1993)). And
see In re Piazza, 719 F.3d 1253, 1260 (11th Cir.
2013) (“In a bankruptcy appeal, we sit as the second
court of review of the bankruptcy court’s judgment
. . . Like the district court, we review a bankruptcy
court’s findings of fact for clear error and its conclusions
of law de novo.”) (citations omitted); In re Toledo, 170
F.3d 1340, 1342 (11th Cir. 1999) (same). “The factual
findings of the bankruptcy court are not clearly
erroneous unless, in light of all of the evidence, we are
left with the definite and firm conviction that a mistake
has been made.” In re Whigham, 770 Fed.Appx. 540,
543-44 (11th Cir. 2019) (citation omitted). And see In
re International Pharm. & Discount II, Inc., 443 F.3d
767, 770 (11th Cir. 2005) (“[t]he bankruptcy court’s
findings of fact are not clearly erroneous unless, in
light of all the evidence, we are left with the definite
and firm conviction that a mistake has been made[ ]”).
“Discretionary determinations, [however,] including the approval of settlements of compromises, are

Res.App.7a
reviewed for abuse of discretion.” Brophy v. Salkin,
550 B.R. 595, 599 (S.D. Fla. 2015). See In re Superior
Homes & Investments, LLC, 521 Fed.Appx. 895, 898
(11th Cir. 2013) (“we review a bankruptcy court’s
approval of a settlement agreement for abuse of discretion.”) (citing Christo v. Padgett, 223 F.3d 1324,
1335 (11th Cir. 2000)); In re Simmonds, 2010 WL
2976769, *1 (S.D. Fla. July 20, 2010) (accord); United

States v. Hartog, Trustee for Bankruptcy Estate of
Exporther Bonded Corp., 597 B.R. 673, 678 (S.D. Fla.

2019) (same). “An abuse of discretion occurs if the
judge fails to apply the proper legal standard or to
follow proper procedures in making the determination, or bases an award upon findings of fact that are
clearly erroneous.” In re Red Carpet Corp. of Panama
City Beach, 902 F.2d 883, 890 (11th Cir. 1990); In re Air
Safety Intern., L.C., 336 B.R. 843, 852 (S.D. Fla. 2005)
(accord). “Bankruptcy court decisions on enforcing
settlement agreements are accorded deference because
bankruptcy courts are often in the best position to
determine whether a settlement is fair and equitable.”
In re Air Safety Intern., L.C., 336 B.R. at 852 (citing
In re Purofied Down Prods. Corp., 150 B.R. 519, 522
(S.D.N.Y. 1993)). In reviewing a bankruptcy court
decision, the district court should note that the bankruptcy court had only to “canvass the issues and see
whether the settlement ‘falls below the lowest point
in the range of reasonableness.’” In re Southeast
Banking Corp., 314 B.R. 250, 272 (Bankr. S.D. Fla.
2004) (citations omitted). And see In re Martin, 490
F.3d 1272, 1275 (11th Cir. 2007) (“the bankruptcy
court did not err in approving the settlement agreement because it did not fall below the lowest point in
a range of reasonableness.”). The reviewing court
may affirm the Bankruptcy Court’s decision on any

Res.App.8a
basis supported by the record. Big Top Koolers, Inc. v
Circus-Man Snacks, Inc., 528 F.3d 839, 844 (11th
Cir. 2008).
III. Discussion
1. The Justice Oaks Factors
“Bankruptcy Rule 9019 provides that after conducting a hearing on notice to creditors, the Bankruptcy
Court may approve a compromise or settlement.” In
re Arrow Air, Inc., 85 B.R. 886, 890 (Bankr. S.D. Fla.
March 8, 1988). And as discussed supra, “[i]t has
long been the law that approval of a settlement in a
bankruptcy proceeding is within the sound discretion
of the Court, and will not be disturbed or modified on
appeal unless approval or disapproval is an abuse of
discretion.” Id. at 890-91.
“A bankruptcy court should only approve a
settlement when it is fair and reasonable and equitable
and in the best interests of the state.” In re Vazquez,
325 B.R. 30, 35-36 (S.D. Fla. March 3, 2005) (citing

Connecticut Gen. Life Ins. Co. v. United Cos. Fin.
Corp. (In re Foster Mortgage Corp.), 68 F.3d 914, 917

(5th Cir. 1995)). A bankruptcy court must consider
the four factors outlined in Wallis v. Justice Oaks II,
Ltd., 898 F.2d 1544, 1549 (11th Cir. 1990) to make
this determination. These factors are: 1) the probability
of success in the litigation; 2) the difficulties, if any,
to be encountered in the matter of collection; 3) the
complexity, expense, inconvenience, and delay of the
litigation involved; and 4) the paramount interest of the
creditors and the proper deference to their reasonable
views. Justice Oaks, 898 F.2d at 1549.

Res.App.9a
“While a bankruptcy court’s decision to approve
a settlement is reviewed under the abuse of discretion
standard, ‘the bankruptcy judge must actually exercise
his discretion. He may not simply accept the trustee’s
word that the settlement is reasonable.’” In re
Simmonds, 2010 WL 2976769, *3 (S.D. Fla. July 20,
2010) (citing In re American Reserve Corp., 841 F.2d
159, 162 (7th Cir. 1987)). The bankruptcy judge must
be informed of all relevant facts and information
necessary to form an independent judgment as to
whether the settlement is fair and reasonable under
the circumstances. Protective Committee for Indep.
Stockholders of TMT Trailer Ferry v. Anderson, 390
U.S. 414, 424 (1968). See e.g., In re Vazquez, 325 B.R.
at 36 (the bankruptcy judge must independently
evaluate the fairness and reasonableness of a settlement); In re Arrow Air, Inc., 85 B.R. at 886 (accord).
And, “[a] bankruptcy court is not obligated to actually
rule on the merits of the various claims ‘only the
probability of succeeding on those claims.’” In re Van
Diepen, P.A., 236 F. App’x 498, 503 (11th Cir. 2007)
(quoting In re Justice Oaks , 898 F.2d at 1549). 2
“A bankruptcy court does not abuse its discretion
2 “‘The [Protective Comm. for Indep. Stockholders of TMT Trailer
Ferry, Inc. v. Anderson, 390 U.S. 414, 88 S.Ct. 1157, 20 L.Ed.2d
1 (1968)] rule does not require the bankruptcy judge to hold a
full evidentiary hearing or even a ‘mini-trial’ before a compromise
can be approved . . . Otherwise, there would be no point in
compromising; the parties might as well go ahead and try the
case . . . Instead, the obligation of the court is to canvass the
issues and see whether the settlement falls below the lowest
point in the range of reasonableness.’” See Brown v. Harris,
2011 WL 3473312, *2, n.5 (M.D. Ga. Aug. 9, 2011) (citing Collier
on Bankruptcy ¶ 9019.02 (Alan N. Resnick & Henry J. Sommer
eds., 16th ed.) (internal citations omitted)).

Res.App.10a
in approving a settlement agreement unless the
settlement agreement falls below the lowest point in
the range of reasonableness.” United States v.

Hartog, Trustee for Bankruptcy Estate of Exporther
Bonded Corp., 597 B.R. 673, 678 (S.D. Fla. March 22,
2019) (citing In re Morgan, 2011 WL 13185742, *4
(S.D. Fla. Feb. 15, 2011)). And see In re Pullum, 598

B.R. 489, 492-93 (Bankr. N.D. Fla. March 14, 2019)
(explaining that the bankruptcy court’s role “is not to
decide the numerous questions of law and fact raise
by [the litigation] but rather to canvass the issue[s]
and see whether the settlement falls below the lowest
point of reasonableness.”). Moreover, “[s]ettlements
are favored in bankruptcy and appellate courts have
held that a bankruptcy court’s approval of a compromise
must be affirmed unless the court’s determination is
either (1) completely devoid of minimum evidentiary
support displaying some hue of credibility, or (2) bears
no rational relationship to the supportive evidentiary
date.” Matter of Marvelay, LLC, 2019 WL 3334706,
*6 (Bankr. N.D. Ga. July 23, 2019). And see In re
Harbour East Development, Ltd., 2012 WL 1851015,
*5 (S.D. Fla. 2012) (“Compromises are favored in
bankruptcy, especially were protracted litigation can
erode the value of the estate and delay administration of the case to the detriment of all creditors.”).
A review of the record indicates the Bankruptcy
Court thoroughly considered each of the Justice Oaks
factors. The Bankruptcy Court also gave “weight to
the competency and experience of both the trustee
and trustee’s counsel in supporting the settlement.”
(Doc. 3 at 18). The Bankruptcy Court did not “simply
accept the trustee’s word that the settlement is
reasonable.’” In re Simmonds, 2010 WL 2976769, *3

Res.App.11a
(S.D. Fla. July 20, 2010) (citing In re American Reserve
Corp., 841 F.2d 159, 162 (7th Cir. 1987)). Rather, the
Bankruptcy Court assessed the Trustee’s evaluations,
her credibility, her thoroughness, and her experience
in addition to independently reviewing the information before it. The Bankruptcy Court found the
Trustee’s business judgment reasonable; it also found
the settlement reasonable. For the reasons discussed
herein, the Court finds that the Bankruptcy Court
did not abuse its discretion.
a. The Probability of Success in the Litigation
First, as to the probability of success in the
litigation, the Bankruptcy Court considered each of
the district court claims and applicable defenses.
Ultimately, the Bankruptcy Court concluded that the
settlement amount likely exceeded the potential
recovery if successful at trial.
The district court claims are brought pursuant to
Alabama’s Uniform Fraudulent Transfer Act (AUFTA)
for actual fraud (Ala. Code § 8-9A-(1)) and constructive
fraud (Ala. Code § 8-9-4(c)). The Bankruptcy Court
noted that Defendants had potential statute of limitation defenses to several of the constructive fraud claims.
See Ala. Code § 8-9A-9 (constructive fraud claims
however have a four-year statute of limitations for
real and personal property).3 And, while the actual
3 The bankruptcy court acknowledged that while the discovery
rule of Alabama Code § 6-2-3 applies to fraudulent transfer
cases, a jury would decide when SEPH discovered or should
have discovered the alleged fraud. (Doc. 3 at 24). Moreover,
“[w]ithout ruling on the issue, the [bankruptcy] court notes that
most of the transfers were recorded at the time the transfer was
made, which may constitute constructive notice to SEPH of the
existence of those transfers and a duty to inquire further.” (Id.

Res.App.12a
fraud claims might be timely, these claims are not
likely to be resolved on summary judgment because
the “intent” element of actual fraud claims is factspecific and typically a jury question. (Doc. 3 at 24).
And see Ala. Code § 8-9A-9 (ten-year statute of
limitations for real property and six-year statute of
limitations for personal property). The Trustee testified
to the value of the different transfers, several of
which had little value because of large mortgage
encumbrances or because of Defendant Gaddy’s only
partial interests in the property. (Id. at 25-33). For
example, the 145 Industrial Park property was
mortgaged for $175,000 with a tax appraisal of
$176,160 at the time of transfer. (Id. at 25). And, the
transfer of Defendant Gaddy’s interest in 110 Barley
avenue to his daughter was valued at $4,000, because
Defendant Gaddy owned the property jointly with his
wife. (Id.).
The Bankruptcy Court considered the Trustee’s
calculations and found her valuations of the transfers
and properties at issue reasonable. (Id. at 25-32).
And, the Bankruptcy Court highlighted that recovery
on many of the district court claims is uncertain
because of the numerous fact-issues that a jury would
be left to decide. (Id.). After considering SEPH’s views,
the Trustee’s testimony, and the claims independently,
the Bankruptcy Court determined that a $825,000
definite settlement was reasonable, particularly given
(citing Int’l Mgmt. Grp. v. Bryant Bank, 274 So.3d 1003, 1014-15
(Ala. 2018) (collecting cases that held recordation of transfers of
the mortgage constitute constructive notice of the existence of
said transfers))). Because of this, the Defendants could potentially
assert a statute of limitations defense to the constructive fraud
claims.

Res.App.13a
the uncertainty of what a jury would decide if the
claims proceeded to trial. (Id. at 25-33). The Bankruptcy Court continued that “the proposed settlement amount exceeds the likely net recovery to the
estate if . . . successful at trial.” (Id. at 33).
SEPH addresses this factor together with the
third factor. (Doc. 9 at 54). SEPH contends the Bankruptcy Court should not have emphasized the desire
to avoid delay when the Trustee herself contributed
to delaying the district court case by waiting two
years to move to be substituted in the district court
case. (Doc. 9 at 55). And, per SEPH, the Bankruptcy
Court did not give enough weight to its offer to advance
litigation costs so that the only burden on the Estate
would be the “passage of time.” (Id. at 56). Lastly,
SEPH asserts approving the settlement went against
the “basic purposes of the Bankruptcy Code” because
it was an “unreasonable and unproven settlement of
fraudulent transfer claims [which] allow[ed] debtors
who are anything but honest and unfortunate to use
the bankruptcy system to bless their fraud.” (Id. at
57).
The Bankruptcy Court addressed each of these
arguments in its order. First, the Bankruptcy Court
stated its order was “not [a] finding that no fraudulent
transfers took place.” (Doc. 3 at 17). The Bankruptcy
Court instead emphasized the time value of money,
the benefits in avoiding delay, and the public policy
favoring certain and prompt settlements. Moreover,
the Bankruptcy Court explained that the passage of
time is a significant consideration especially when
the amount to be recovered in litigation (if any) is
speculative. (Id. at 19). The Bankruptcy Court also
reviewed the Trustee’s calculations and reasoning, in

Res.App.14a
addition to conducting its own independent review as
discussed above. The Bankruptcy Court considered
each of SEPH’s arguments (which it reiterates on
appeal) and concluded the settlement was equitable
and reasonable. As discussed infra, the benefits of
certainty now, the time value of money, and the public
policy favoring settlement supported approving the
settlement here. The Court agrees with the Bankruptcy Court’s evaluation of the probability of success
and concludes that the first Justice Oaks factor
supports the Bankruptcy Court’s decision to approve
the settlement agreement. The Court finds no abuse
of discretion.
b. The Difficulties, If Any, to be Encountered
in the Matter of Collection
As to factor two, the difficulties, if any, to be
encountered in the matter of collection, the Bankruptcy
Court concluded “collection difficulties for the trustee
related to the settlement amount are not at issue.”
(Doc. 3 at 16). The Bankruptcy Court discussed what
the Trustee could recover at trial if successful in
analyzing the first factor. (Id. at 26-33). It reasoned
that the amount recoverable after fully litigating the
claims is speculative. Moreover, the Trustee testified,
and the Bankruptcy Court agreed, that even if successful, “the settlement amount exceeds the likely net
recovery to the [E]state.” (Doc. 3 at 33).
SEPH contends the Bankruptcy Court was
incorrect in its assessment of this factor because the
proper inquiry is not the difficulty in collecting
settlement but instead the difficulty in collecting a
judgment against the Defendants. (Doc. 9 at 47).
SEPH does acknowledge that the Bankruptcy Court

Res.App.15a
separately analyzed how much could be collected if a
judgment was obtained. (Doc. 9 at 47). From there,
SEPH continues that the Bankruptcy Court improperly
deferred to the Trustee’s valuations and opinions.
(Id.). “Particularly, the Bankruptcy Court deferred to
the Trustee’s conclusions regarding a number of
these claims even though the Trustee failed to obtain
nonbiased information regarding the claims.” (Id.).
The Bankruptcy Court analyzed each transfer at
issue in the district court case, analyzed the difficulties
litigation would pose, and estimated the value of the
transfers in the context in the of the settlement.
SEPH’s arguments on appeal are similar to the arguments in made in its opposition to settlement; the
Bankruptcy Court addressed SEPH’s contentions in
its order approving the settlement. (Doc. 3 at 31-32).
Moreover, while SEPH quarreled with the Trustee’s
valuations but it did not “provide[ ] any genuine
alternative analysis or state[ ] its own view of a
reasonable settlement value, other than to claim
ignorance of the ‘real’ amount of the claims because
it never obtained its own property appraisals and
financial records for Gaddy Electric.” (Doc. 3 at 32).4
4 SEPH estimated property values based on additions to real
property added after the alleged fraudulent transfers. SEPH
also argued that the Trustee and bankruptcy court erred by
considering the encumbrances on property at the time of transfer
instead of getting new appraisals that show the current balances
of mortgages. The Trustee retorts that if the transfers were
avoided, the value added to the Estate would be determined at
the time of transfer. Alabama Code Sections 8-9A-8(b) and 8(c)
state judgment for a voided transfer is determined at the time
of transfer, “subject to adjustment as the equities may require.”
SEPH has not explained why an “adjustment as the equities may
require” justifies estimating the value of the alleged fraudulent

Res.App.16a
SEPH’s argued in its opposition to the settlement
and again on appeal that the Trustee’s valuations
were understated and she should have engaged in
more thorough discovery before entertaining settlement. (Doc. 9 at 51). That SEPH would do things differently than the Trustee or that more could be
recovered if litigated fully is not the proper inquiry.
The question is not whether an objecting party
“would have made a different decision under the
same circumstances—the question is whether the
[t]rustee’s decision was reasonable.” In re Harbour
East Development, Ltd., 2012 WL 1851015, *5 (S.D.
Fla. May 21, 2012). And, “[a] bankruptcy court is not
obligated to actually rule on the merits of the various
claims ‘only the probability of succeeding on those
claims.’” In re Van Diepen, P.A., 236 Fed.Appx 498,
503 (11th Cir. 2007). The Bankruptcy Court’s inquiry
focused on the probability of success in litigation,
taking into account the costs and hurdles associated
with litigation, as well as the Trustee’s testimony
and basis for her testimony. Ultimately, it concluded
that the settlement was fair and reasonable because
collecting a judgment is uncertain and would likely
be less than the settlement amount. The Court finds
no abuse of discretion in the Bankruptcy Court’s
review and determination.
c. The Complexity, Expense, Inconvenience,
and Delay of the Litigation Involved
For factor three—the complexity, expense, inconvenience, and delay of the litigation involved—the
Bankruptcy Court explained that “while most of the
transfers at a time later than the time of transfer. As such, the
Trustee’s valuations are reasonable.

Res.App.17a
fraudulent transfer claims are not complex as far as
the elements of the claims are concerned . . . , there is
value in getting matters resolved.” (Doc. 3 at 18). The
Bankruptcy Court noted that its approval of the
settlement was not a finding that no fraudulent
transfers occurred. (Id. at 17). Instead, the Bankruptcy
Court, found the settlement to be a fair, reasonable,
and adequate alternative to costly and prolonged
litigation. (Id.).
The Bankruptcy Court initially noted that it gave
“weight to the competency and experience of both the
[T]rustee and [T]rustee’s counsel in supporting the
settlement.” (Id. at 18). The Trustee has evaluated
“hundreds of fraudulent transfer” claims” during her
career as a bankruptcy attorney. (Id.). In evaluating
the claims here, the Trustee considered the district
court record, applicable defenses and collection issues
as well as engaging in informal discovery to determine asset values and liabilities. (Id.). The Trustee
also hired another experienced bankruptcy attorney
to assist her. (Id.).
Moreover, the Trustee used tax records to gauge
the value of the assets at issue in the district court
claims. (Id. at 22). SEPH also took issue with the
Trustee’s use of tax records and contended that the
Trustee should have obtained independent appraisals
of the transferred properties at issue instead. (Id.).
SEPH pointed out that tax records are not admissible
at trial to definitively establish the fair market value
of property so the Trustee’s reliance on tax records
was misplaced. (Id. at 23). The Bankruptcy Court
noted the Trustee’s use of tax records was akin “to an
expert who is permitted under Federal Rule of Evidence
703 to rely on evidence that may not be admissible at

Res.App.18a
trial in forming an opinion.” (Id.). The Trustee testified,
and the Bankruptcy Court agreed, that hiring independent appraisers would have taken money from the
Estate; the Trustee relied on the tax records in an effort
to minimize costs while gathering the information
needed to make an informed decision. (Id.). Both the
Trustee and her counsel recommended settlement
approval. (Id. at 18). The Bankruptcy Court found the
Trustee reasonably exercised her business judgment
in recommending settlement approval.
As to delay, the Bankruptcy Court considered
that this matter began over ten years ago with the
Water’s edge default and litigation could extend for
many years into the future. (Id. at 19). The Bankruptcy
Court noted that the elements of the district court
claims may not be complex, but litigation nonetheless
would require extensive discovery that would both
take substantial time and would be costly. (Id. at 19-20).
The Defendants also requested a jury trial; another
factor that would extend the district court litigation.
(Id. at 21). Additionally, fraudulent transfer claims
typically are not resolved on summary judgment, further extending resolution of these claims. (Id. at 20-21).
In considering the impact of a delay on the Estate,
the Bankruptcy Court and Trustee emphasized the
time value of money and that public policy favors
settlement to drawn out litigation. (Id. at 19). The
Trustee determined that it would be advantageous
for the Estate to expeditiously close out the district
court case instead of burdening the Estate with costly
litigation, “drawn out to a pointless end.” (Id.). The
Bankruptcy Court found this position reasonable,
highlighting that “[o]ne of the goals of the bankruptcy
laws is to provide a prompt and efficient adjustment

Res.App.19a
of the debtor-creditor relationship. This goal is not
furthered by protracted litigation.” (Id.) (citing In re
Shoemaker, 155 B.R. 552, 556 (Bankr. N.D. Ala. Dec.
21, 1992)). Based on these considerations, the Bankruptcy Court found the settlement equitable and
reasonable. This Court holds that the Bankruptcy
Court adequately took into account the time and
expense of litigation; the Trustee faced the possibility
of costly and protracted litigation over the district
court claims.
d. The Paramount Interest of the Creditors
and the Proper Deference to Their Reasonable Views
Last, the fourth Justice Oaks factor considers
the paramount interest of the creditors and the proper
deference to their reasonable views. The Bankruptcy
Court explained that this is a case with only two
creditors—SEPH and USB. USB did not object to the
settlement; but SEPH, the majority creditor did. The
Bankruptcy Court pointed out that the creditors
interest is only a part of its consideration in deciding
whether to approve a settlement. And, while the bankruptcy judge must consider the reasonable views of
the creditors, “no case holds that creditors have an
absolute ‘veto power’ over approval of a settlement.
Instead, they speak to ‘proper deference’ to their
‘reasonable views.’” In re Vazquez, 325 B.R. at 37
(citing Foster Mortgage, 68 F.3d at 917). As one court
explained:
In that regard, it should be noted that Such
a “veto power” would run counter to the very
idea that the court’s task is to independently
assess the proposed compromise. “Proper

Res.App.20a
deference to [the creditor’s] reasonable views”
is not the same as saying that the court
must defer to the creditor simply because
the only creditor (or a majority of creditors)
does not think the settlement is fair. It is not
the creditors’ task to determine the fairness
of a proposed settlement; it is the court’s
obligation to make that determination while
making certain not to ignore their legitimate
views or concerns.

In re Vazquez, 325 B.R. at 37 (internal citations
omitted). A Trustee is not an agent of the creditors; a
Trustee is an officer of the court whose job it is to
maximize assets for the Estate. Id. at 37-38. The
Trustee, in her fiduciary capacity, may decide it is in
the Estate’s best interest to litigate matters to completion. Id. In other circumstances though, the Trustee’s
investigation of the facts and relevant law might lead
her to conclude settlement is the best option to
“expedite litigation and avoid uncertainty.” Id.
Here, the Bankruptcy Court considered the creditors views and determined that even though SEPH
opposed the settlement, deference to the creditors did
not mean that SEPH got to single-handedly veto the
settlement. (Doc. 3 at 13-14). And, the Bankruptcy
Court noted that USB, the only other creditor,
supported the settlement. (Id. at 13). In sum, SEPH’s
contention in opposing the settlement, which it
reiterated on appeal, was that its opposition to settlement was reasonable and therefore should be afforded
deference. (Doc. 9 at 43-44). SEPH’s alternative to
settlement involved an offer to advance discovery
costs, to help fund the litigation and to buy out USB
if it were allowed to litigate the district court claims

Res.App.21a
on behalf of the Estate. (Id.). But, USB opposed being
bought out.5 Additionally, the Bankruptcy Court, the
Trustee, and USB each voiced concern about SEPH,
a non-fiduciary, advancing its own interests over
that of the Estates if it were allowed to litigate the
claims. (Doc. 3 at 15).6 The Bankruptcy Court also
discussed the interest of creditors in receiving money
now versus at some unspecified date in the future
if the claims were to be litigated fully. Lastly, the
Bankruptcy Court explained that under SEPH’s
proposal, “SEPH will have an allowed claim in this
bankruptcy, usurping the trustee’s ability and duty
to object to the claim if warranted.[ ]” (Doc. 3 at 15).
“Proper deference to the creditor’s reasonable views
is not the same as saying that the court must defer to
the creditor simply because the only creditor (or the
majority of creditors) does not think the settlement
is fair.” In re Vazquez, 325 B.R. at 37. The record
supports that settlement was in the best interest of
the creditors because drawn-out litigation, with success
being uncertain, would serve only to diminish the
Estate’s assets.

5 SEPH argues that USB “offered little to no explanation as to
why” it did not want SEPH to buy it out other than “merely
asserting it did not wish to ‘have any dealings with SEPH
concerning Union State Bank’s claim.’” (Doc. 9 at 43). According
to SEPH, USB “would have been just as well off under SEPH’s
alternate proposal as it is under the second compromise.” (Id.).
6 SEPH argues that it has “repeatedly stuck its neck out for the
benefit of both itself and Union State Bank.” But, it was reasonable for the Bankruptcy Court to raise concern that a non-fiduciary,
as compared to a Trustee who is an agent of the court, might
not place the Estate’s interests over that of its own.

Res.App.22a
Thus, it is evident from the record that the Bankruptcy Court carefully considered each of the Justice
Oaks factors in approving the settlement. Therefore,
the Court does not find that the Bankruptcy Court
abused its discretion.
2. Trustee’s Business Judgment
The Bankruptcy Court reasonably examined that
the Trustee exercised sound business judgment after
evaluating the strengths and weaknesses of the potential claims, the time and expenses associated with
litigating the district court claims, and the likelihood
of success if the claims were litigated. “The decision
of a [t]rustee in Bankruptcy to enter a settlement is
made within his or her business judgment.” In re
Simmonds, 2010 WL 2976769, *3 (S.D. Fla. July 20,
2010). “‘Compromises are generally approved [if the
Bankruptcy Court finds that] they meet the business
judgment of the trustee.’” Id. (quoting Indian
Motorcycle Co. Inc., 289 B. R. 269, 282-83 (1st Cir.
2003)). SEPH does not dispute this rule but instead
contends the Bankruptcy Court merely rubber stamped
the Trustee’s decision without conducting a meaningful,
independent review the settlement and the Trustee’s
means of arriving at such settlement. (Doc. 9 at 59).
See e.g., In re Simmonds, 2010 WL 2976769 at *3
(finding the Bankruptcy Court did not rubber stamp
the trustee’s decision because it mindfully considered
the Justice Oaks factors).
It is important to note that:
the trustee is not the “agent” of the creditors.
The trustee’s obligation—as an officer of the
court—is to maximize assets as best as
possible under the circumstances, not to serve

Res.App.23a
as an extension of a creditor whose other
collection efforts have been forestalled. In
many cases, the trustee’s fiduciary duties may
well require litigating a matter to conclusion;
in other instances, a trustee may find that a
settlement is the most effective way to expedite litigation and avoid uncertainty. And in
those instances in which the trustee’s comprehensive examination of the underlying facts
leads to a conclusion that further litigation
will lead only to diminishing returns, protracted investigation, or costly litigation with
absolutely “no guarantee as to the outcome,”
an inquiring court is to afford the trustee
“wide latitude.”

In re Vazquez , 325 B.R. at 38 (internal citations
omitted).
Before the Court is a Trustee who has conducted
an extensive review of the possible claims against the
debtors. The Trustee believes that $825,000.00 represents a true “premium” settlement, especially in light
of the speculative, protracted alternative of litigating
the district court claims. The Trustee reviewed the
legal issues surrounding the various claims which
indicated that the Trustee is unlikely to receive a larger
amount through litigation. Though the Trustee did
not conduct the extensive discovery SEPH thought was
needed, the Trustee did conduct a meaningful and
thorough investigation. In choosing to conduct informal
discovery, the Trustee sought to minimize costs to the
Estate while obtaining the necessary information
needed to fully evaluate the claims. The Trustee highlighted the prompt disbursements of distributions
from the Estate without additional litigation expenses

Res.App.24a
as well as the ability of the Defendants to pay the
settlement now. (Doc. 14 at 18). The Trustee considered
the potential for a change in financial abilities in the
future. (Id.). Specifically, the Trustee pointed out that
it considered SEPH’s parent company’s statement that
SEPH is “liquidating its loan portfolio and winding
down” which calls into question SEPH’s future financial
abilities. (Id. at 18, n.4). Thus, the Trustee’s “comprehensive examination of the underlying facts [led] to a
conclusion that further litigation [would] lead only to
diminishing returns, protracted investigation, or costly
litigation with absolutely “no guarantee as to the
outcome[.]” In re Vazquez, 325 B.R. at 38. The Bankruptcy Court considered the Trustee’s testimony,
independently evaluated the fairness of the settlement
and approved the settlement. The Court finds no
abuse of discretion.
3. Contested Discovery
SEPH argues the Bankruptcy Court abused its
discretion by denying its request for contested matter
discovery. (Doc. 9 at 61). SEPH requested additional
discovery pursuant to Bankruptcy Rule 9014 in order
to analyze property valuations to see if the settlement
amount was proper. (Id. at 63). SEPH asserts Bankruptcy Rule 9014 was the proper vehicle for discovery,
not Bankruptcy Rule 2004.
The Bankruptcy Court asked SEPH to “outline
what discovery it believed it needed to evaluate the
trustee’s first settlement proposal” to which SEPH
responded with what the Bankruptcy Court “considered to be essentially full litigation of the district court
case through the discovery stage.” (Doc. 3 at 12).
SEPH “reiterated its earlier request that essentially

Res.App.25a
asked for full discovery and a trial on the merits of
the fraudulent transfer claims” in its opposition to
the second motion. (Id.). The Bankruptcy Court held
an evidentiary hearing during with SEPH was allowed
to “extensively question witnesses (including the
trustee).” The Bankruptcy Court is not required to
hold a mini-trial to approve a settlement agreement;
to require such would render settlement pointless.
Brown v. Harris, 2011 WL 3473312, *2, n.5 (M.D.
Ga. Aug. 9, 2011). An evidentiary hearing is also not
required. In re Laing, 2007 WL 4482263, *3 (M.D.
Fla. Dec. 17, 2007). The Bankruptcy Court did not
abuse its discretion in denying SEPH’s motion for
contested discovery.
IV. Conclusion
For the reasons discussed herein, SEPH’s appeal
is DENIED, the Bankruptcy Court’s approval of the
Settlement is affirmed. Accordingly, SEPH’s motion
for a stay is moot. (Doc. 12).7
7 Nevertheless, SEPH’s motion for a stay was due to be denied.
The Bankruptcy Court denied SEPH’s first motion for a stay.
(Doc. 12-1; Doc. 12-2). Thus, the Bankruptcy Court’s denial of
the stay is reviewed by this Court for abuse of discretion. See
e.g., In re Forest Oaks, 2010 WL 1904340, *2 (S.D. Ala. May 10,
2010); In re Land Ventures for 2, 2010 WL 4176121, *1 (M.D.
Ala. Oct. 19, 2010) (accord). Granting a stay pending an appeal
is “an exceptional response granted only upon a showing of four
factors: 1) that the movant is likely to prevail on the merits; 2)
that absent a stay the movant will suffer irreparable damage;
3) that the adverse party will suffer no substantial harm from
the issuance of the stay; and 4) that the public interest is served
by issuing the stay.” Garcia-Mir v. Meese, 781 F.2d 1450, 1453
(11th Cir. 1986). Upon a careful review of the record, this Court
holds that the Bankruptcy Court did not abuse its discretion in
denying the motion to stay.

Res.App.26a
DONE and ORDERED this the 20th day of
August 2020.

Res.App.27a
ORDER APPROVING
SECOND MOTION TO COMPROMISE (DOC. 146)
AND DENYING MOTION TO APPROVE
PURSUIT OF CLAIMS (DOC. 156)
(MARCH 26, 2020)
622 B.R. 440
UNITED STATES BANKRUPTCY COURT,
S.D. ALABAMA
________________________
IN RE: JERRY DeWAYNE GADDY,

Debtor.
________________________
Case No. 17-01568
Before: Henry A. CALLAWAY,
Chief U.S. Bankruptcy Judge.
HENRY A. CALLAWAY,
CHIEF U.S. BANKRUPTCY JUDGE
This case came before the court on January 27,
2020 for an evidentiary hearing on (1) the second
motion to compromise (doc. 146) filed by chapter 7
trustee Terrie Owens and the defendants (“movants”
or “defendants”), including the debtor Jerry DeWayne
Gaddy (“Gaddy”), in case no. 1:16-CV-00332-JB-M
currently pending in the United States District Court
for the Southern District of Alabama; (2) the objection
(doc. 149) filed by creditor SE Property Holdings, LLC
(“SEPH”); and (3) SEPH’s related motion to approve
pursuant of claims on behalf of the estate (doc. 156).
The evidentiary hearing lasted eight hours. The court

Res.App.28a
heard testimony from Jennifer Corbitt, Vice President
of SEPH; the trustee Ms. Owens; and Gaddy. It
admitted movants’ exhibits 1-29, 31-65, 68-71 and
SEPH’s exhibits 1-28 (except page 3 on exhibit 7).
Having carefully considered the evidence and the
applicable law, the court approves the second motion
to compromise and denies SEPH’s motion to approve
pursuit of claims.
BACKGROUND
In 2006 and 2008, Gaddy guaranteed two business
loans by Vision Bank to Water’s Edge, LLC related to
a real estate project in Baldwin County, Alabama.
The real estate project ultimately failed, and Water’s
Edge defaulted on its obligation to Vision Bank in
June 2010. Vision Bank is no longer operating; it
sold all of its assets in or around 20111 and SEPH
now owns the two loans at issue. Corbitt testified
that SEPH holds the Vision Bank “legacy assets” and
that SEPH will continue in operation “however long
it takes” to collect those assets.
Vision Bank (later SEPH) sued Gaddy and other
guarantors in October 2010 in the Circuit Court of
Baldwin County, Alabama. In December 2014, the
circuit court entered judgment in favor of SEPH against
Gaddy and others in the amount of $9,168,468.14,
although the Alabama Supreme Court later held that
the judgment was not final because of one defendant’s

1 Dan Murtaugh, Vision Bank sold to Arkansas’s Centennial,
Press-Register, Nov. 17, 2011, available at www.al.com/pressregisterbusiness/2011/1 l/vision_bank_sold_to_arkansass.html.

Res.App.29a
bankruptcy.2 See Gaddy v. SEPH, 218 So. 3d 315,
324 (Ala. 2016).
In 2016, SEPH sued Gaddy, his wife, his daughter,
and several family-owned business entities in the
U.S. District Court for the Southern District of
Alabama, case nos. 16-CV-00332 and 16-cv-00560,
for a variety of fraudulent transfer and conspiracy
claims under Alabama law. (See movants’ exs. 43,
44). The district court consolidated both cases into
case no. 16-cv-00332, and SEPH subsequently amended
its complaint in that case. (See movants’ exs. 45, 46).
In the district court case, SEPH alleges that
from 2009 through 2014, with knowledge of Water’s
Edge potential and then actual default, Gaddy began
transferring his property to family members and
others. Neither side disputes that these transfers
took place. The following is a summary of pertinent
events from SEPH’s district court complaints and the
evidence admitted at the hearing:
12/5/2006

First loan to Water’s Edge (#98809)
for $10 million

11/28/2006

Gaddy’s unlimited guaranty for Loan 1

12/5/2006

Second loan to Water’s Edge (#98817)
for $4.5 million

2 SEPH and Gaddy disagree as to whether the judgment is now
final and how this affects the district court case. The finality or
non-finality of the state court judgment does not affect the
court’s analysis related to the settlement approval. Accepting
for the sake of argument SEPH’s position that the judgment is
final and that there is no need to litigate the finality of the
judgment as part of the district court case, the court would still
approve the settlement as reasonable.

Res.App.30a
11/28/2006

Gaddy’s limited guaranty for Loan 2
(limited to $84,392)

4/25/2008

Gaddy reaffirms guaranty of Loan 1
with principal increase to $12.5
million

4/25/2008

Gaddy reaffirms limited guaranty of
Loan 2

March 2009

It becomes clear that the project will
not be completed on time

3/13/2009

Guarantors begin missing capital
contributions

May 2009

First guarantors file for bankruptcy

10/3/2009

Letter to guarantors from the bank
regarding upcoming payment and
potential default

10/16/2009

Gaddy deeds Marengo County,
Alabama parcels to Rembert, LLC
(Movants’ ex. 24)

10/30/2009

Rembert, LLC formed per Secretary
of State with debtor, wife Sharon,
and daughter Elizabeth as 1/3
members (Movants’ exs. 22 23)

11/20/2009

Gaddy transfers 46% of Gaddy
Electric & Plumbing, LLC to his wife
Sharon/Movants’ ex.3)

11/20/2009

Gaddy quitclaims three Marengo
County parcels to his wife Sharon
(Movants’ exs. 37 38)

Res.App.31a
June 2010

Water’s Edge defaults on both Loans
and the bank demands payment from
Gaddv pursuant to his guaranties

10/4/2010

Gaddy conveys real property (110
Barley Avenue) to daughter
Elizabeth (Movants’ ex. 31)

10/11/2010

SEPH files lawsuit against Water's
Edge and guarantors, including
Gaddy in Baldwin County Circuit
Court

12/31/2011

Gaddy conveys his 1/3 interest in
Rembert, LLC to daughter Elizabeth
(Movants’ ex. 28)

February
2012

SLG Properties, LLC (“SLG”) formed
by Gaddy’s wife Sharon (Movants’
exs. 8, 9)

4/18/2012

Gaddy conveys real property (145
Industrial Park) to SLG /Movants’ ex.
13)

4/18/2012

Gaddy conveys real property (179
Industrial Part) to SLG (Movants’ ex.
19)

11/17/2014

Baldwin County Circuit Court rules
against Gaddy and other guarantors

12/15/2014

Gaddy transfers 44% interest in
Gaddy Electric to his wife Sharon
(Movants’ ex. 7)

12/17/2014

Baldwin County Circuit Court enters
judgment against Gaddy and other
guarantors for $9.1 million

Res.App.32a
12/23/2014

Gaddy transfers $293,945.51 to
Gaddy Electric

4/26/2017

Gaddy files this chapter 7 bankruptcy

Some discovery was conducted in the district
court case before it was stayed in May 2017 because
of Gaddy’s bankruptcy. (See, e.g., movants’ exs. 47-57;
SEPH exs. 12, 22-27). The trustee was substituted as
the party in interest to the district court case in June
2019. (See SEPH ex. 12). A jury trial was requested;
the case is not currently set for trial. (See id.,
movants’ exs. 63, 64).
On May 9, 2019, the trustee and the defendants
filed a motion in the bankruptcy court to approve a
compromise (doc. 115) of the district court claims in
the amount of $375,000. This court denied approval
of that settlement because SEPH was willing to pay
$400,000 to the trustee to be able to pursue the
claims. (See order, doc. 134). This court (with the
permission of the district court judge) ordered the
trustee and the defendants to mediate the district
court claims with retired Bankruptcy Judge Jack
Caddell. SEPH also participated in the mediation.
Although a settlement was not reached at mediation,
the trustee and the defendants continued to negotiate
and filed the subject motion on November 15, 2019
proposing to settle the claims in the district court
case for $825,000.
SEPH and Union State Bank are the only two
creditors in this chapter 7 case. SEPH has filed a
claim for about $2.5 million, and Union State Bank
has filed a claim for about $1.87 million. Both claims
are filed as secured, but the collateral does not appear
to be property of the bankruptcy estate, so without

Res.App.33a
ruling upon the issue the court has considered both
claims to be unsecured for purposes of this decision.
Union State Bank supports the proposed settlement
(see joinder, doc. 170), while SEPH opposes it.
ANALYSIS
In deciding whether or not to approve a settlement,
a bankruptcy court must consider the following factors
to the extent applicable:
(a) The probability of success in the litigation;
(b) the difficulties, if any, to be encountered
in the matter of collection; (c) the complexity
of the litigation involved, and the expense,
inconvenience[,] and delay necessarily attending it; (d) the paramount interest of the
creditors and a proper deference to their
reasonable views in the premises.

In re Justice Oaks II, Ltd. , 898 F.2d 1544, 1549
(11th Cir. 1990). The court “consider[s] these factors
to determine the fairness, reasonableness[,] and adequacy of a proposed settlement. . . . ” See In re Chira,
567 F.3d 1307, 1312-13 (11th Cir. 2009) (citation and
quotation marks omitted).
“In examining the relevant factors, courts have
deferred to the [t]rustee’s business judgment when
reasonable.” In re Sportsman’s Link, Inc., No. 0710454, 2011 WL 7268047, at *11 (Bankr. S.D. Ga. Dec.
20, 2011); see also In re Morgan, 439 F. App’x 795,
795 (11th Cir. 2011); In re Able Body Temporary
Servs., Inc., No. 8:13-BR-6864-CED, 2015 WL 791281,
at *4 (M.D. Fla. Feb. 25, 2015), aff’d, 632 F. App’x
602, 602 (11th Cir. 2016). While the court must not
just “rubber stamp” the trustee’s proposal, it also

Res.App.34a
must not “substitute its own business judgment for
that of the [t]rustee.” See In re Harbour E. Dev.,
Ltd., No. 10-20733-BKC-AJC, 2012 WL 1851015, at
*1 (Bankr. S.D. Fla. May 21, 2012). It need not “hold
a ‘mini-trial’ to determine the merits of each and
every claim subject of a disputed settlement . . . but
must simply be convinced that a trustee’s judgment
is based upon a sound assessment of the situation.”
See id. (citation and quotation marks omitted); see
also Brown v. Harris, No. 3:11-CV-25 CDL, 2011 WL
3473312, at *2 n.5 (M.D. Ga. Aug. 9, 2011).
The court’s role “is not to decide the numerous
questions of law and fact raised by [the litigation]
but rather to canvass the issue[s] and see whether
the settlement falls below the lowest point in the
range of reasonableness.” In re Pullum, 598 B.R. 489,
492-93 (Bankr. N.D. Fla. 2019) (citation, quotation
marks, and brackets omitted). “The concept of the
‘range of reasonableness’ has been defined as a range
which recognizes the uncertainties of law and fact in
any particular case and the concomitant risks and
costs necessarily inherent in taking any litigation to
completion.” Id. (citation, quotation marks, and ellipses
omitted). The court should examine “the probable
outcomes of the litigation, including its advantages
and disadvantages, and make a pragmatic decision
based on all equitable factors.” See In re McDowell,
510 B.R. 660, 663 (Bankr. N.D. Ga. 2014). “Settlements
are favored in bankruptcy and appellate courts have
held that a bankruptcy court’s approval of a compromise must be affirmed unless the court’s determination
is either (1) completely devoid of minimum evidentiary
support displaying some hue of credibility, or (2) bears
no rational relationship to the supportive evidentiary

Res.App.35a
data.” Matter of Marvelay, LLC, No. 18-69019 LRC,
2019 WL 3334706, at *6 (Bankr. N.D. Ga. July 23,
2019) (citation, quotation marks, and brackets omitted).
SEPH argues (1) that the court should have
required the trustee to conduct more discovery or
allowed SEPH more discovery and (2) that the Justice
Oaks factors are not met. The court discusses SEPH’s
arguments below.
I.

SEPH’s Request for More Discovery

SEPH’s argument that the settlement should not
be approved without more discovery is not well-taken.
It is not SEPH’s role to evaluate the settlement; that
is for the court. See infra, section II.A.
Jennifer Corbitt, SEPH’s representative, testified
that SEPH obtained some documents and appraisals
on at least some of the properties at issue as part of
the state court case. There was also some discovery
done in the district court case before the bankruptcy
was filed. Additionally, SEPH could have requested
discovery under Federal Rule of Bankruptcy Procedure
2004 related to the alleged fraudulent transfers.
Throughout the almost three years that this bankruptcy
has been pending since April 2017, SEPH has not
requested an examination (and related documents) of
the debtor or any of the other defendants under
Bankruptcy Rule 2004. As a creditor of the debtor’s
chapter 7 bankruptcy estate, SEPH is a “party in
interest” under Rule 2004(a) entitled to make such a
request.3

3 If SEPH’s position is that the court would not have allowed
Rule 2004 discovery, that position is speculative. The court will

Res.App.36a
Instead, when the court asked SEPH to outline
what discovery it believed it needed to evaluate the
trustee’s first settlement proposal, SEPH responded
with what this court considered to be essentially full
litigation of the district court case through the discovery
stage. (See order, doc. 125; SEPH resp. to court order,
doc. 127; SEPH ex. 15); Brown v. Harris, 2011 WL
3473312, at *2 n.5 (bankruptcy judge not required “to
hold a full evidentiary hearing or even a ‘mini-trial’
before a compromise can be approved; otherwise,
there would be no point in compromising, the parties
might as well go ahead and try the case”) (citations
and quotation marks omitted). SEPH did not limit its
requested discovery in opposition to the second motion
but reiterated its earlier request that essentially
asked for full discovery and a trial on the merits of
the fraudulent transfer claims. (See SEPH opp., doc.
149, p. 14). Although it was not required to do so, the
court allowed SEPH the opportunity to present
evidence and extensively question witnesses (including
the trustee) at an evidentiary hearing. See, e.g., In re
Able Body Temporary Servs., 2015 WL 791281, at *2;
In re Sportsman’s Link, 2011 WL 7268047, at *11.
SEPH’s contention that it needed more discovery
does not persuade this court to deny settlement
approval.
II.

The Justice Oaks Factors
A. Paramount Interest of Creditors

SEPH, the creditor with the majority of the debt,
objects to the settlement, while Union State Bank, a
not ex post facto decide how it would have ruled on a request
that was never made.

Res.App.37a
creditor which is owed a smaller but still substantial
debt, supports the settlement. The question for the
court is whether the case reflects a scenario in which
“proper deference” to SEPH’s views dictates rejection
of the settlement. The court finds that it does not.4
Creditor views are only one factor “in approving
a settlement . . . and are not controlling.” See In re
S.E. Banking Corp., 314 B.R. 250, 273 (Bankr. S.D.
Fla. 2004). “It is not the creditors’ task to determine
the fairness of a proposed settlement; it is the court’s
obligation to make that determination while making
certain not to ignore their legitimate views or concerns.”
In re Vazquez, 325 B.R. 30, 37 (Bankr. S.D. Fla.
2005). Moreover,
[w]hile the trustee’s obligation is to marshal
assets for the benefits of creditors, that task
is assumed as a fiduciary relationship to the
estate itself and not as some sort of ‘hired
gun.’ The trustee is not the employee or
agent of the creditors; they do not have the
right to direct how the trustee chooses to perform the statutory duties of the position.
The trustee is in essence an independent
third party charged with the responsibility
of maximizing assets for the estate. A bankruptcy trustee is an officer of the court that
appoints . . . her. When persons perform
duties in the administration of the bankruptcy
estate, they act as ‘officers of the court’ and
not private persons. They are held to high
fiduciary standards of conduct, and these
4 The court analyzes SEPH’s concerns about the settlement
throughout this opinion, not just in this section.

Res.App.38a
duties are owed not only to the entire creditor
body but to the debtor as well.
[...]
Clearly, the trustee is not the ‘agent’ of the
creditors. The trustee’s obligation—as an
officer of the court—is to maximize assets
as best as possible under the circumstances,
not to serve as an extension of a creditor
whose other collection efforts have been forestalled. In many cases, the trustee’s fiduciary
duties may well require litigating a matter
to conclusion; in other instances, a trustee
may find that a settlement is the most
effective way to expedite litigation and avoid
uncertainty. And in those instances in which
the trustee’s comprehensive examination of
the underlying facts leads to a conclusion that
further litigation will lead only to diminishing
returns, protracted investigation, or costly
litigation with absolutely no guarantee as to
the outcome, an inquiring court is to afford
the trustee wide latitude.

Id. at 37-38 (citations and quotation marks omitted);
see also In re Soderstrom, 477 B.R. 249, 262 (Bankr.
M.D. Fla. 2012) (“When the potential augmentation
of a bankruptcy estate involves protracted investigation
or potentially costly litigation, with no guarantee as
to the outcome, the trustee must tread cautiously,
and an inquiring court must accord [the trustee]
wide latitude in deciding whether to settle.”) (citation,
quotation marks, and brackets omitted).
The court rejects SEPH’s implication that as the
majority creditor it should have a “veto.” See In re

Res.App.39a

Vazquez, 325 B.R. at 37. “Such a ‘veto power’ would
run counter to the very idea that the court’s task is
to independently assess the” settlement. See id.
“‘Proper deference to the creditor’s reasonable views
is not the same as saying that the court must defer to
the creditor simply because the only creditor (or a
majority of creditors) does not think the settlement is
fair.” See id. (citation and brackets omitted).
The court similarly rejects SEPH’s complaint that
the trustee settled after the mediation concluded and
did not include SEPH in further settlement discussions.
The mediation deadline was a date set by this court
for the parties to participate in the mediation, which
they did. The trustee was free to continue discussions with the defendants after the mediation; this is
common practice and does not indicate that the
settlement reached is unreasonable. The trustee in
her fiduciary role to the estate was not required to
include SEPH in those discussions or seek SEPH’s
“blessing” on any proposed settlement.
SEPH contends that the court should disapprove
the settlement because it has offered to fund the
litigation and guarantee a recovery to the estate—at
some later date—of at least $825,000. (See SEPH ex.
16). However, SEPH’s offer to fund the litigation under
some sort of joint prosecution or similar agreement
(see SEPH exs. 13, 14) does not compel disapproval
of the settlement for multiple reasons.
First, both the trustee and Union State Bank are
opposed to SEPH—a non-fiduciary—controlling the
litigation, and the court shares their concern that
SEPH would not necessarily put the interests of the
estate above its own interests. See In re Vazquez,
325 B.R. at 38 (“Again, it seems contrary to the

Res.App.40a
intent of the code that the trustee’s role could be subverted from an independent, fiduciary capacity to one
in which the trustee is compelled to pursue a course
of litigation which she does not believe will prove
fruitful.”). If the trustee were to continue the district
court litigation, she would have her own counsel and
control the litigation; under SEPH’s proposal, she
would not be able to do so or would do so in name
only. Second, SEPH’s proposal contemplates that
SEPH will have an allowed claim in this bankruptcy,
usurping the trustee’s ability and duty to object to the
claim if warranted.5 Third, and as discussed in more
detail in section C., the continuation of the district
court case would likely delay the administration of this
bankruptcy case for several more years.
B. Difficulty in Collecting
This factor is irrelevant or neutral because
collection difficulties for the trustee related to the
settlement amount are not at issue.6 See In re Chira,
567 F.3d at 1313; In re Morgan, 600 B.R. 725, 733
n.8 (Bankr. N.D. Ga. 2019).

5 SEPH’s counsel pointed out that the trustee has not yet objected
to the claim. The trustee testified, and the court’s experience in
chapter 7 cases confirms, that chapter 7 trustees often do not
object to claims until near the end of the case.
6 The trustee’s calculations of what she may ultimately be able
to collect if successful at trial are discussed below.

Res.App.41a
C. Probability of Success, Complexity of the
Litigation, and Concerns of Expense, Inconvenience, and Delay
i. The Applicable Law
The district court claims are brought under
Alabama’s Uniform Fraudulent Transfer Act (the
AUFTA) for actual fraudulent transfers under Alabama
Code § 8-9A-4(a) and for constructive fraudulent
transfers under Alabama Code §§ 8-9A-4(c) and 89A-5.
To prevail under § 8-9A-4(a), the trustee would
have to show that Gaddy made the subject transfer
“with actual intent to hinder, delay, or defraud any
creditor.” The AUFTA “recites a non-exhaustive list
of 11 factors that may be considered in determining
actual intent. . . . ” See SEPH v. Braswell, 255 F. Supp.
3d 1187, 1201 (S.D. Ala. 2017). “These circumstantial
indicia of intent are sometimes called ‘badges of fraud.’”
Id. (citation omitted).
For constructive fraud under § 8-9A-4(c), the
trustee must prove that Gaddy did not receive
reasonably equivalent value in exchange for the subject transfer and either (a) was engaged or was about
to engage in a business transaction for which his
remaining assets were unreasonably small in relation
or (b) intended to incur (or believed or reasonably
should have believed that he would incur) debts
beyond his ability to pay. For constructive fraud
under § 8-9A-5, the trustee must prove that the claim
arose before Gaddy made the subject transfer and
that Gaddy either (a) made the transfer without
receiving reasonably equivalent value in exchange
and was insolvent when he made the transfer or

Res.App.42a
became insolvent as a result of the transfer or (b) the
transfer was made to an insider for an antecedent
debt, he was insolvent at the time, and the insider
had reasonable cause to believe that the defendant
was insolvent at the time. Whether a debtor receives
reasonably equivalent value for a transaction is
determined from the viewpoint of the debtor’s creditors. See SEPH v. Braswell, 255 F. Supp. 3d at 1198.
If the trustee succeeded on one or more of the
claims, relief may include avoidance of the transfers
at issue, see Ala. Code § 8-9A-7, and a “judgment for
conveyance of the” transferred property under Alabama
Code § 8-9A-8(b), i.e., the property would come into
the estate for the trustee to administer. Alternatively,
the trustee could recover against the transferees a
“judgment for the value of” the transferred property
under Alabama Code § 8-9A-8(b). Value would be
determined as of the date of the transfer. See Ala.
Code § 8-9A-8(c).
ii. General Concerns
The court outlines the trustee’s testimony and
its own analysis of each transfer below but addresses
the following general concerns as an initial matter.
First, the court is not finding that no fraudulent
transfers took place. The trustee’s testimony did not
show that she believed that there were no fraudulent
transfers—only that she believed that $825,000 was
a “premium” settlement based on her analysis of the
claims. As discussed below, the court finds that her
analysis and the resulting settlement are both fair,
reasonable, and adequate.

Res.App.43a
Second, the court gives weight to the competency
and experience of both the trustee and the trustee’s
counsel in supporting the settlement. See, e.g., In re
Lorraine Brooke Assocs., Inc., No. 07-12641-BKCAJC, 2007 WL 2257608, at *3 (Bankr. S.D. Fla. Aug. 2,
2007). The trustee testified, and the court is aware,
that she has practiced in the bankruptcy arena since
2003, has represented chapter 7 trustees since 2008,
and has served as a chapter 7 trustee in this district
since 2012. During that time, she has had the opportunity to evaluate hundreds of fraudulent transfer
claims; in this case, she testified that the original
settlement proposal of $375,000 was a fair compromise
and, again, that the $825,000 settlement is a premium reached with the defendants “to buy peace and
to move on with their lives.” (See mot. to approve
compromise, doc. 146, pp. 11-12).
The court further finds the trustee’s testimony
credible that in evaluating the claims, she reviewed
all of the district court pleadings and exhibits, took into
account the complexity of the case and the possibility
of success, including applicable defenses and any
collection issues. She engaged in informal discovery
with the defendants, including exchanges of documents
about the underlying assets and their value (discussed
in more detail in section iv. below) and examined
potential liabilities such as mortgages. She hired an
experienced lawyer to assist in the evaluation, C.
Michael Smith, who has over 30 years of bankruptcy
experience and frequently represents trustees in bankruptcy; he too recommended the settlement approval.
She did not ignore the positions taken by either creditor
and took their concerns into account, as well.

Res.App.44a
Third, while most of the fraudulent transfer
claims are not complex as far as the elements of the
claims themselves (although there are complexity of
proof problems discussed herein and by the trustee),
there is value in getting matters resolved. Justice Oaks
contemplates consideration of delay and inconvenience,
both of which weigh in favor of approving the settlement. This matter started over ten years ago in 2009
with the Water’s Edge potential default, and all good
things must come to an end. The court agrees with
the trustee that it is reasonable to take into account
the present value of money, rather than $825,000 to
be received at an undetermined date if the district
court case was to go forward. While there was some
discussion at the hearing that SEPH might be willing
to pay the money upfront, such an offer still does not
solve the problem of keeping this chapter 7 case open
for several years while the trustee prosecutes the
case at SEPH’s behest.7
The trustee, exercising her fiduciary role, decided
that it would be better for the estate as a whole to
close out the case in an expeditious manner rather
than waiting on several years of litigation to conclude. See, e.g., Matter of Munford, Inc., 97 F.3d 449,
455 (11th Cir. 1996) (“public policy strongly favors
pretrial settlement in all types of litigation because
such cases, depending on their complexity, can occupy
7 SEPH asserted at the hearing through witness Corbitt and its
counsel that it was willing to pay the $825,000 upfront. This
“upfront” provision was not contained in SEPH’s court-ordered
written offer filed into the record on January 3, 2020 as doc. 157 and
admitted as SEPH ex. 16. Assuming for the sake of argument
that this is a “firm” offer, most of the concerns outlined herein—
including about SEPH’s non-fiduciary status—remain.

Res.App.45a
a court’s dockets for years on end”) (citation and
quotation marks omitted); In re Soderstrom, 477
B.R. 249, 254 (Bankr. M.D. Fla. 2012) (“As with most
settlements, it may be possible to achieve a more
favorable outcome for creditors through additional
litigation. But, when the administration of an estate
is burdened with costly litigation and drawn out to a
pointless end, the trustee is encouraged to find
alternative solutions.”). She said that “time is the
problem” and she does not want to “drag out” the
estate. To this end, she testified, and the court concurs,
that the district court case could take several years
to complete and that a protracted appeal could stall
resolution of this case for even more years. See, e.g.,
In re Harbour E. Dev., Ltd., No. 10-20733-BKC-AJC,
2012 WL 1851015, at *6-7 (Bankr. S.D. Fla. May 21,
2012); In re Sportsman’s Link, Inc., No. 07-10454,
2011 WL 7268047, at *18 (Bankr. S.D. Fla. Dec. 20,
2011); see also In re Shoemaker, 155 B.R. 552, 556
(Bankr. N.D. Ala. 1992) (“One of the goals of the
bankruptcy laws is to provide a prompt and efficient
adjustment of the debtor-creditor relationship. This
goal is not furthered by protracted litigation.”).
Fourth, while the elements of the claims themselves may not be complex, as recognized by both the
trustee and this court, the discovery necessary to take
these claims to trial—including multiple depositions,
hiring of expert witnesses to do appraisals, written
discovery, etc.—would be. It is not only a question of
whether SEPH advances litigation costs but also about
the time involved in taking this case to trial. SEPH
implicitly recognizes this complexity in the extensive
discovery it proposed to the court and for which it
has advocated in attacking the trustee’s position.

Res.App.46a
The trustee testified that while she did not conduct
formal discovery in the district court case, she and
the defendants engaged in “lots of informal discovery”
and she believed she had all she needed to independently evaluate the claims and reach the settlement.
The court finds this approach to be practical and a
proper exercise of the trustee’s fiduciary role. SEPH’s
argument that more formal discovery should be done
does not compel a different result. See, e.g., In re
Harbour E. Dev., 2012 WL 1851015, at *2 (the question
is not whether an objecting party “would have made
a different decision under the same circumstances—
the question is whether the [t]rustee’s decision was
reasonable”).
Fifth, fraudulent transfer claims are rarely ripe
for summary judgment. See In re Van Diepen, P.A.,
236 F. App’x 498, 504 (11th Cir. 2007) (“‘Ordinarily, the
issue of fraud is not a proper subject of a summary
judgment. Fraud is a subtle thing, requiring a full
explanation of the facts and circumstances of the
alleged wrong to determine if they collectively constitute a fraud.’”) (citation omitted). For the actual
fraud claims, neither the court nor the trustee have
overlooked that many of the badges of fraud (transfers
to insiders, etc.) are present here. However, it is wellsettled that actual intent “is a heavily fact-dependent
question.” See SEPH v. Braswell, 255 F. Supp. 3d at
1201-02; Int’l Mgmt. Grp., Inc. v. Bryant Bank, 274
So. 3d 1003, 1016 (Ala. Civ. App. 2018). “[P]roof of
one or more of the [badges of fraud] does not compel
a conclusion that a creditor is entitled to a judgment
in its favor. . . . ” See Int’l Mgmt Grp. v. Bryant Bank,
274 So. 3d at 1016. “This is in part because actual
fraudulent intent requires a subjective evaluation of

Res.App.47a
the debtor’s motive.” Id. (citation and quotation marks
omitted). “Actual fraud most often is revealed through
circumstantial evidence, and intent is a mental emotion,
of which the external signs are the acts and declarations of the parties, taken in connection with the
concomitant circumstances.” Id. (citation, quotation
marks, and ellipses omitted). Thus, “fraudulent
transfer issues generally come down to the credibility
of witnesses” and “are not well suited for summary
judgment.” See id. (citations, quotation marks,
brackets, and ellipses omitted); see also SEPH v.
Braswell, 255 F. Supp. 3d at 1201-02. There are also
statute of limitations issues with some of SEPH’s
constructive fraud claims as outlined below.
Further, the Gaddys requested a jury trial in the
district court case. In the court’s experience in 32 years
of private practice, a jury trial not only is much more
expensive than a bench trial (or an early settlement),
but also a jury will generally be more sympathetic to
an individual defendant rather than a collection
vehicle such as SEPH. In this respect, while a jury
may award punitive damages if the trustee proved
one or more of the fraudulent transfer claims, it
would not be required to do so. See SEPH v. Judkins,
No. 1:17-CV-00413-TM-B, 2019 WL 177981, at *8-9
(S.D. Ala. Jan. 11, 2019). The clear and convincing
standard of proof for punitive damages is higher
than the preponderance of the evidence standard for
proving the AUFTA claims. See SEPH v. Center, No.
15-0033-WS-C, 2017 WL 3403793, at *35 (S.D. Ala.
Aug. 8, 2017) (punitive damages “unavailable absent
proof by clear and convincing evidence that the
defendant consciously or deliberately engaged in
oppression, fraud, wantonness, or malice with regard

Res.App.48a
to the plaintiff”) (citation and quotation marks omitted).
Even if the trustee “made such a showing . . . , the
decision of whether or not to award punitive damages”
would still be discretionary for the jury and would
almost certainly require a full-blown trial. See id.
While SEPH offered to guarantee a recovery in the
amount of the settlement, the court has outlined the
time factor above and will not repeat that again here.
Finally, SEPH argues that the trustee should
have obtained independent valuations of all of the
transferred properties and should not have relied
on tax records. As an initial matter, the trustee
testified, and the court agrees, that hiring appraisers
would have depleted money from the estate.8 The
court credits the trustee’s testimony that it was not
necessary to consult with realtors about the real
property because she is familiar with Marengo
County real estate. This testimony is consistent with
the court’s own knowledge of the trustee’s role as the
only chapter 7 trustee (absent conflicts) who handles
the court’s cases in its Northern Division, which
includes Marengo County. This is not a case such as
In re Breland, No. 16-2270-JCO, 2018 WL 1318954
(Bankr. S.D. Ala. Feb. 14, 2018) (Oldshue, J.), in
which the trustee could have marketed the property.
At this point and unless the trustee prevailed on the
fraudulent transfer claims at trial, the property is
not part of the bankruptcy estate; it was completely
reasonable for the trustee to attempt to minimize costs
to the estate while still gathering the information she
8 The court has already outlined both its concerns and the trustee’s
concerns with SEPH controlling the district court litigation
even if it offered to pay for the appraisals (to later be reimbursed
out of any recovery).

Res.App.49a
needed to evaluate any settlement proposal through
informal discovery.
The court acknowledges that Alabama courts
have held that a tax assessment record is not
admissible at trial to definitively establish the fair
market value of property. See Presley v. B.I.C. Constr.,
Inc., 64 So. 3d 610, 621 (Ala. Civ. App. 2009). In her
capacity as a chapter 7 trustee in this court for
approximately eight years (and representing trustees
before that), the trustee frequently evaluates the
value of assets in terms of what she could liquidate
an asset for on behalf of the estate. The court finds
her reliance on tax records to be analogous to an expert who is permitted under Federal Rule of Evidence
703 to rely on evidence that may not be admissible at
trial in forming an opinion.
The court, the trustee, and the trustee’s counsel
could reasonably rely on tax records without the
need for expensive appraisals to assist in evaluating
the claims and to gauge the amounts that the trustee
believes, in her business judgment, she could realize
if certain properties ultimately came back into the
estate. See, e.g., In re McDowell, 510 B.R. 660, 663
(Bankr. N.D. Ga. 2014) (court “must not rest its
approval of any proposed settlement on a resolution
of the ultimate factual and legal issues underlying
the compromise disputes” but must “make a pragmatic
decision based on all equitable factors”); Romagosa v.
Thomas, No. 6:06-CV-301-ORL-19, 2006 WL 2085461,
at *8 (M.D. Fla. July 25, 2006) (“The approval of a
proposed settlement does not depend upon establishing
as a matter of legal certainty that the subject
claim . . . is or is not worthless or valuable.”), aff’d, In
re Van Diepen, 236 F. App’x at 505. SEPH itself cited

Res.App.50a
to tax records in its opposition brief (doc. 149). In
short, the court is not convinced that the trustee’s
reliance on tax records shows that her judgment was
not based on “a sound assessment of the situation[,]”
See In re Harbour E. Dev., 2012 WL 1851015, at *1, in
forming her opinion of a reasonable settlement amount.
With these things in mind, the court now turns
to the counts of the district court complaint as last
amended (movants’ ex. 45).
iii. Statute of Limitations Issues
SEPH filed its original complaint on June 30,
2016. All of the claims except the 2009 transfer of
shares to Sharon fall within the statute of limitations for actual fraud (ten years for real property and
six years for personal property) under Alabama Code
§ 8-9A-9. However, as discussed throughout, the
“intent” element of actual fraud claims is fact-specific
and generally a jury issue.
The constructive fraud claims are subject to a
four-year statute for both real and personal property
under § 8-9A-9. Several of the constructive fraud
claims may be subject to a statute of limitations
defense, as discussed in section iv. below. While the
discovery rule of Alabama Code § 6-2-3 applies in
fraudulent transfer cases, the issue of when SEPH
discovered or should have discovered the alleged
fraud will be for the jury. See SEPH v. St. Family
Ltd. P’ship, No. 16-567-WS-MU, 2017 WL 1628898,
at *6 (S.D. Ala. May 1, 2017); Int’l Mgmt. Grp. v.
Bryant Bank, 274 So. 3d at 1015 n. 11. Without
ruling on this issue, the court notes that most of the
transfers were recorded at the time the transfer was
made, which may constitute constructive notice to

Res.App.51a
SEPH of the existence of those transfers and a duty
to inquire further. See Int’l Mgmt. Grp. v. Bryant
Bank, 274 So. 3d at 1014-15.
iv. The Specific Fraudulent Transfer and
Conspiracy Claims
Transfers of Real Property (145 Industrial
Park and 179 Industrial Park) to SLG in
April 2012: Count VIII
Neither the trustee nor the court are ignoring
the fact that no value was paid for these transfers.
But actual fraud would be difficult to prove at the
summary judgment stage, and the defendants likely
have a statute of limitations defense sufficient to
overcome summary judgment on the constructive
fraud claims since these transfers were more than
four years before SEPH filed its complaint. See Ala.
Code § 8-9A-9.
The trustee also testified that assuming she prevailed on this claim, these properties have little or no
liquidation value. There are mortgages on the properties and essentially no value for the estate based on
the values assigned by the tax assessor. At the time of
the transfer of 145 Industrial Park, that property
was mortgaged to Robertson Banking Company for
approximately $175,000 with a tax appraised value
of $176,160. (See movants’ exs. 11-15; SEPH ex. 6). At
the time of the transfer of 179 Industrial Park, that
property was mortgaged to West Alabama Bank &
Trust for approximately $198,000 with an appraised
value of $167,560. ( See movants’ exs. 16-21; SEPH
ex. 6).

Res.App.52a
Even if there was some value to be recovered,
the trustee testified that there is a limited market
for sale of commercial properties in Marengo County;
in her experience, such properties are usually sold at
auction or through a realtor with a 10% commission,
which is consistent with what this court approves for
sale of commercial properties. The court not only
finds the trustee’s business judgment in this respect
to be reasonable but agrees with this assessment
based on its own experience of approving such sales.
Transfer of 110 Barley Avenue to
Elizabeth Gaddy (Gaddy’s Daughter) in
October 2010: Count VII
The court and the trustee have taken into account
that the defendants may have a valid statute of limitations defense to the constructive fraud claims; the
statute of limitations under Alabama Code § 8-9A-9
is four years, the transfer took place in 2010, and
suit was filed in 2016. Assuming success, the trustee
testified that at the time of the transfer this property
was unencumbered raw land worth about $8,000
based on the deed tax of $8.00. (See movants’ ex. 31);
Ala. Code § 40-22-1 (deed tax is $.50 per every $500,
or $1.00 per every $1,000). Gaddy and his wife owned
the property jointly, meaning the value of Gaddy’s
portion was only about $4,000. Gaddy testified that
his daughter was moving from Fairhope, Alabama
and he and his wife gave her this property to build a
house on it, which is what she did. (See movants’ ex.
32). The 2016 appraised property tax value of $201,380
cited by SEPH (see SEPH opp., doc. 149, p.4; SEPH
ex. 5) includes the subsequently-constructed home,
which did not exist at the time of the transfer.

Res.App.53a
Transfers of Three Marengo County Parcels
to Sharon Gaddy (Gaddy’s Wife) in
November 2009: Count VI
There is a potential statute of limitations defense
to the constructive fraud claims since the transfers
took place seven years prior to suit and the statute is
four years. See Ala. Code § 8-9A-9. These parcels are
the homeplace of Jerry and Sharon Gaddy and the
surrounding land. Gaddy had only a one-half interest
in the parcels at the time of the transfer. (See
movants’ exs. 33-36).
The trustee testified that she used the deed tax
valuation of $247,000 (see movants’ ex. 38), subtracted
the mortgage amount of $120,000 (see movants’ exs.
33-36), and then divided that number in half (for
Gaddy’s one-half interest); as a result, and taking
into account the costs of liquidation, she believes
that if she were to sell the homeplace property, she
would net around $50,000 for the estate. The court
does not find this analysis to be flawed or otherwise
unreasonable. Further, the deed tax valuation of
$247,000 is more than the valuation proffered by
SEPH of $132,340. (See SEPH opp., doc. 149, pp. 3-4;
SEPH ex. 4).
Transfer of Marengo County, Alabama
Parcels to Rembert, LLC in October 2009:
Count V
As with the claims above, there is a possible
statute of limitations defense to any constructive fraud
claim. The trustee testified that these two parcels
were co-owned by Gaddy and his brother as inherited
property and they both signed the deed transferring
the parcels to Rembert, LLC. (See movants’ ex. 24).

Res.App.54a
Rembert paid Gaddy’s brother $92,000 for his one-half
interest (see movants’ exs. 25, 26); Gaddy would argue
at trial and the evidence supports that he received a
one-third interest in Rembert, LLC in exchange for
transferring his one-half interest in the properties.
(See mtn. to approve compromise, doc. 146, p.6).
The property tax records (movants’ ex. 27; SEPH
ex. 3) show the appraised value of the first parcel as
approximately $290,000, but that includes a building
valued at about $140,000 that was not constructed at
the time of the transfer; the value of the land was
listed as $150,500. The value of the second parcel was
listed as $28,000. The trustee added these two amounts
($150,500 plus $28,000) and subtracted the $92,000
paid to Gaddy’s brother for a total amount of $86,500.
She then divided that number by three (for Gaddy’s
one-third interest) to value this claim at approximately
$29,000. The court finds this to be a reasonable analysis given the uncertainty of recovery on this claim.9
Transfer of Membership Interest in Rembert, LLC to Elizabeth Gaddy in December
2011: Count III
The court concurs with the trustee’s analysis
that, in addition to a statute of limitations defense on
any constructive fraud claim under the four-year
statute of limitations, the probability of success is far
from certain on this claim because Elizabeth paid
Gaddy $46,000 for the transfer of the membership,
tending to make this an issue of fact for the jury.
9 There is also an issue of intent, discussed below, in that Gaddy
argues that he did not know about the Water’s Edge potential
default at this time.

Res.App.55a
(See movants’ ex. 29; doc. 130,10 p.3); Ala. Code § 89A-3 (discussing “value” under the AUFTA). The
value proffered by SEPH of $318,040 (see SEPH opp.,
doc. 149, p.3; SEPH ex. 3) for Rembert’s assets includes
the building that was not constructed at the time of
transfer. Subtracting the building amount of $139,540
yields a value of $178,500 for the properties several
years after the 2011 transfer. Dividing that number
by three (for Gaddy’s one-third interest) yields a
value of $59,500. A jury could find that $46,000 was
reasonably equivalent value in 2011. See, e.g., Wheeler
Bros., Inc. v. Jones, No. 2:14-CV-1258-PGB-TFM,
2017 WL 2112349, at *3 (M.D. Ala. May 15, 2017)
(“the touchstone of the reasonably equivalent value
analysis is whether the parties exchanged comparable
realizable commercial value”) (citation and quotation
marks omitted); see also Thompson Props. 119 AA
370 Ltd. v. Birmingham Hide & Tallow Co., Inc., 897
So. 2d 248, 263 (Ala. 2004).
Regardless, even valuing this claim at $60,000
assuming that the trustee prevailed, the court still finds
the settlement to be within the range of reasonableness.
Transfers of Membership Interests in
Gaddy Electric to Sharon Gaddy in
November 2009 and December 2014:
Counts I and II
SEPH contends that the trustee should have
obtained Gaddy Electric’s financial records, including
10 This is the trustee’s written analysis of the claims in support
of the first motion to approve compromise and she testified about
this document at the hearing on the second motion to approve
compromise.

Res.App.56a
profit and loss statements and information about the
company’s port-a-potty business. Gaddy Electric is a
closely held family-owned business. Gaddy Electric’s
website, discussed at the hearing, lists Sharon and
Elizabeth as managing members and Gaddy as operations manager. Gaddy testified that Gaddy Electric
has approximately 50 employees and “32 or so” trucks
and that most of the business’s clients are “paper
mill clients.”
The trustee testified that in her experience
family-owned businesses are difficult to market and
generally have little value without the involvement
of the family that owns it, i.e., selling the business
without the goodwill, reputation, and involvement of
the Gaddy family would be very difficult. Although in
a different context, the Eleventh Circuit—in the face
of a strenuous objection by SEPH—has recognized that
it is proper to evaluate the risk of critical employees
(here, the Gaddys themselves) leaving a business in
valuing the business. See generally In re Seaside
Eng’g & Surveying, Inc., 780 F.3d 1070 (11th Cir.
2015). The court finds the trustee’s business judgment
about the tenuous value of this claim to be reasonable.
There are other factors that make recovery on this
claim uncertain. Two transfers are at issue: a 2009
transfer of 46% of the shares to Sharon and a 2014
transfer to Sharon of 44% of the shares. The defendants
would argue at trial that the 2009 transfer took place
so that Sharon (who had a 5% interest at the time)
would then own a majority of company and the
company would be classified as a majority-owned
woman business. The court concurs with the trustee
that if Gaddy was really trying to thwart SEPH (or any
other creditor) at the time, he would have transferred

Res.App.57a
his entire interest, not just 46%. And there is an issue
of fact as to whether Gaddy knew about the letter
from Vision Bank regarding the Water’s Edge potential
default at the time of the 2009 transfer. SEPH contends
that Gaddy is lying about not receiving the letter (or
reading the email attaching the letter); however,
since all reasonable inferences would be resolved in
the defendants’ favor on summary judgment, this
claim would likely go to trial.11 There is also likely a
valid statute of limitations defense to both the actual
and constructive fraud claims based on the 2009
transfer, making the likelihood of success on the
claims related to that transfer low. See Ala. Code § 89A-9.
The second transfer of 44% of the shares occurred
in December 2014. While this transfer is more suspect
than the 2009 transfer because the state court had
recently ruled in SEPH’s favor, there is evidence that
Sharon paid $421,000 for the shares. (See movants’
exs. 4-6). SEPH argues that the trustee should not
have relied on the appraisal (referred to as the
Aderholt appraisal in this litigation and admitted as
movants’ ex. 62 and SEPH ex. 27) of the shares at
that value because that appraisal was prepared by
Gaddy’s accountant at Gaddy’s request. But the
court does not find the valuation to be somehow
unreliable because Gaddy requested it; to the contrary, a jury could find that this evidence tends to
show that Gaddy was attempting to determine an
appropriate price and was not merely “gifting” the
shares to his wife in an effort to avoid the state court
judgment. Even so, the court is not definitively finding
11 The same is true for the other transfers made in 2009.

Res.App.58a
that the shares were worth that much but has taken
into account that whether this amount constitutes
reasonably equivalent value would be an issue for
the jury. See, e.g., Thompson Props. v. Birmingham
Hide & Tallow, 897 So. 2d at 263.
SEPH argues that the 2014 financial statement
for Jerry and Sharon Gaddy (SEPH ex. 1) shows a
total value of their membership interests in Gaddy
Electric as $ 1.5 million. But even if a jury found that
the 2014 transfer was fraudulent, the court concurs
with the trustee that the Gaddy Electric shares
would not be readily marketable without the Gaddys
and that the value of the shares in that circumstance
is highly speculative. The trustee also testified that
there would be no value in Gaddy Electric’s physical
assets, all of which are encumbered.
Gaddy’s Payment of $293,945,51 to Gaddy
Electric in December 2014: Count IV
Gaddy has a defense that this amount was
actually due and owing to Gaddy Electric on account
of a loan made from Gaddy Electric to Gaddy in October 2014. (See movants’ exs. 40-42). Again, SEPH
believes that it could prevail on this claim if it went
to trial, but that is not a given and there is nonetheless
a jury issue. But even valuing this claim at its full
amount, the court still does not find that the $825,000
settlement falls below the lowest range of reasonableness.
Conspiracy Claim: Count IX
The success of this claim would depend on the
success of the other claims outlined above.

Res.App.59a
SEPH has not provided any genuine alternative
analysis or stated its own view of a reasonable settlement value, other than to claim ignorance of the “real”
amount of the claims because it never obtained its
own property appraisals and financial records for
Gaddy Electric.12 This is despite the facts that SEPH
(1) brought the fraudulent transfer claims in the first
place, and (2) could have requested a Rule 2004
examination at any point (including in the 21/2 years
the bankruptcy was pending before this settlement
motion) to obtain information. SEPH refuses to give
even a ballpark figure of what it contends the fraudulent transfer and conspiracy claims are worth; instead,
it simply argues that they are worth more than what
has been proposed and that the litigation should
proceed as it desires. SEPH contends the trustee should
fully (or almost fully) litigate the claims—hire expert
appraisers, take depositions, engage in extensive
written discovery, issue subpoenas, etc.—before even
entertaining settlement. (See, e.g., SEPH exs. 13,
14). But SEPH’s argument that it would do things
differently if it were in control does not mean that
the proposed settlement fails to meet the Justice
Oaks factors or is otherwise unreasonable.
To be clear, the trustee and the court are not
saying that there was no bad conduct here—only
that a settlement of $825,000 is reasonable in light of
the circumstances, including defenses that would
likely result in the district court case going to trial and
the uncertainty of what a jury would do. Although
12 SEPH’s opposition brief, cited herein, does include some
numbers, but those numbers do not take into account any
mortgages or other factors, such as whether buildings existed
on land at the time of the transfer.

Res.App.60a
there is a possibility that the trustee could recover
more, that is not the standard. As demonstrated
above, the court has taken SEPH’s views into account
and is not merely rubber stamping the trustee’s
proposal but has made its own independent review of
the evidence and argument before it in light of the
Justice Oaks factors. In sum, the court finds that the
trustee’s analysis of the claims and the settlement is
reasonable under the circumstances and that the
proposed settlement exceeds the likely net recovery
to the estate if she were successful at trial. The court
also finds that the settlement is fair and, at the very
least, does not fall below the lowest point in a range
of reasonableness.
CONCLUSION
To the extent the court has not specifically
addressed any of the parties’ arguments, it has considered them and determined that they would not alter
the result. The court therefore grants the second
motion to approve compromise. Because the court is
granting that motion, the court denies SEPH’s motion
to pursue claims as moot.

